Divulgación
MasterCard Secured
TASAS DE INTERESES Y CARGOS

Tasa de Porcentaje Anual (“APR”)
Para Compra de Mercancías y Servicios

1.99%

APR introductorio por los primeros 6 meses a partir de la fecha de emisión

14.70%

de la tarjeta. Luego de este periodo, su APR será
. Este APR variará de
acuerdo al mercado basado en la Tasa Preferencial de los Estados Unidos (Prime Rate).1

APR para Transferencias de Balances de otras
Instituciones Financieras

14.70%, este APR variará de acuerdo al mercado basado en la Tasa Preferencial de los
Estados Unidos (Prime Rate).

APR para Adelantos en Efectivo

22.74%, este APR variará de acuerdo al mercado basado en la Tasa Preferencial de los
Estados Unidos (Prime Rate).
29.99%
Este APR aplicará si usted realiza un pago tardío.2

APR por Penalidad y cuándo aplicará

Pago de Intereses

Cargo Mínimo por Intereses
Para Consejería sobre Tarjetas de Crédito por la
Consumer Financial Protection Bureau (“CFPB”)

¿Hasta cuándo aplicará el APR por penalidad? Si sus APRs aumentan por esta razón,
el APR por penalidad aplicará hasta que el Banco reciba 6 pagos mínimos consecutivos en
o antes de sus fechas de vencimiento.
Su fecha límite de pago será de por lo menos de 21 días después del cierre de cada ciclo
de facturación. No le cobraremos intereses sobre compras de mercancía y servicios si
usted paga la totalidad de dicho balance todos los meses en o antes de la fecha de
vencimiento de su pago. No obstante, en las transacciones de adelantos en efectivo y
transferencias de balances se le cobrará intereses desde la fecha en que se efectúen los
desembolsos de estas transacciones.
Si se le cobrara intereses, el cargo no será menor de $1.50.
Para más información acerca de los factores a considerar al solicitar o utilizar una tarjeta de
crédito visite la página de Internet de la CFPB en
http://www.consumerfinance.gov/learnmore

CARGOS
Cuota Anual
Cargos por transacciones
•
Adelantos en Efectivo (incluye transferencias
de balances)
•
Cambio de Moneda
Cargos por Penalidad
•
Cargos por Mora
•
Cheque Devuelto

Ninguno
$10 Cargo por emisión de cada tarjeta adicional (si aplica)
2% del total del adelanto en efectivo (mínimo $2.00 y máximo $10.00)
1% del monto de cada transacción en dólares US
Hasta un máximo de $35.00
$10.00

¿Cómo calculamos sus balances?: Utilizamos un método llamado Balance Diario Promedio (incluyendo compras nuevas de mercancías y
servicios).
Pérdida de las tasas introductorias: Podemos terminar su APR introductorio y aplicar el APR por incumplimiento si usted realizara un pago tardío.
1

Tasa Preferencial (Prime Rate): Las tasas variables indicadas son certeras basándose en la tasa preferencial de 3.25%. Hemos añadido un
margen de 11.45% a la tasa preferencial para determinar los APRs de Compras y de Transferencias de Balances.
2

Pago tardío significa que el pago mínimo no es recibido durante un periodo de 60 días consecutivos a partir de la fecha de vencimiento del pago.

La información divulgada sobre tasas, APRs y cargos aplicables a la tarjeta de crédito MasterCard Secured es certera a marzo de 2020. La misma
podría haber variado. Para obtener información actualizada sobre esta tarjeta puede escribirnos a PO Box 195115, San Juan, PR 00919-5115 o
llamarnos al 1.800.981.5554.
OTROS TERMINOS IMPORTANTES DE LA CUENTA
• Usted está solicitando una tarjeta de crédito para la que se requiere un colateral en efectivo. Este producto ha sido diseñado para
ayudar a establecer o reconstruir el crédito.
• Los solicitantes que cualifiquen, podrían tener términos y precios más favorables a través de productos sin colateral o no garantizados.
• Un depósito de seguridad/ garantía reembolsable mínimo de $500 (máximo de $5,000) es requerido para este producto. Su límite de
crédito será determinado, entre otros factores, por la cantidad del depósito de seguro que provea, su ingreso y su capacidad de pagar el
crédito establecido y las Políticas de Crédito de Oriental.

Oriental Bank es miembro FDIC.

